APPENDIX A

NUMBER 13-17-00659-CV
COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
CORPUS CHRISTI - EDINBURG
TEXAS DEPARTMENT OF
PUBLIC SAFETY,
Appellant,
v.
LEROY TORRES,
Appellee.
On appeal from the County Court at Law No. 1
of Nueces County, Texas.
OPINION
Before Justices Contreras, Benavides, and Longoria
Opinion by Justice Contreras

(1a)

2a
In this case of first impression, we are asked whether
sovereign immunity bars claims by private individuals
against units of state government under the federal
Uniformed Services Employment and Reemployment
Rights Act of 1994 (USERRA). See 38 U.S.C.A. §§ 4301–
4335 (West, Westlaw through P.L. 115-223). The trial
court denied a plea to the jurisdiction on those grounds
filed by appellant, the Texas Department of Public Safety
(DPS), in a suit brought by appellee Leroy Torres.
By one issue on appeal, DPS contends that the trial
court erred in denying its plea because sovereign
immunity applies and has not been validly abrogated by
Congress or waived by the legislature. A review of the
relevant case law compels us to agree. Therefore, we will
reverse and render judgment granting DPS’s plea.
I. BACKGROUND
Torres enlisted in the United States Army Reserve in
1989 and was deployed to Iraq in 2007. Prior to
deployment, Torres had been employed as a DPS trooper
since 1998. In 2008, Torres was honorably discharged and
sought to be reemployed by DPS. However, because of a
lung condition he acquired while serving in Iraq, Torres
requested reemployment with DPS in a different position
than the one he held earlier. DPS declined to offer him a
different job but did provide a “temporary duty offer” of
continued employment in his prior position. Instead of
returning to his original position, Torres resigned.
Torres sued DPS in 2017, alleging that DPS’s failure
to offer him a job that would accommodate his disability
violated USERRA, a federal statute that prohibits
adverse employment actions against an employee based
on the employee’s military service. See id. § 4311. Torres
alleged that DPS officials “forced” him to resign because
of the injuries he suffered incident to his military service.
His petition sought: (1) a declaration that DPS’s actions

3a
violated USERRA; (2) an order “[r]equir[ing] that [DPS]
fully compl[y] with the provisions of USERRA by
providing [Torres] with . . . compensatory and/or
liquidated damages in an amount equal to the amount of
lost compensation and other benefits suffered by reason
of [DPS]’s willful violations of USERRA”; and
(3) attorney’s fees and costs. DPS filed a plea to the
jurisdiction contending that sovereign immunity applies
and deprives the trial court of subject-matter jurisdiction.
After a hearing, the trial court denied the plea, and DPS
perfected this appeal. See TEX. CIV. PRAC. & REM. CODE
ANN. § 51.014(a)(8) (West, Westlaw through 2017 1st
C.S.).
II. DISCUSSION
A. Standard of Review
A plea to the jurisdiction is a dilatory plea used to
defeat a cause of action without regard to whether the
claims asserted have merit. Bland Indep. Sch. Dist. v.
Blue, 34 S.W.3d 547, 554 (Tex. 2000). The plea challenges
the trial court’s subject matter jurisdiction. Id. Whether a
trial court has subject matter jurisdiction and whether the
pleader has alleged facts that affirmatively demonstrate
the trial court’s subject matter jurisdiction are questions
of law that we review de novo. Tex. Dep’t of Parks &
Wildlife v. Miranda, 133 S.W.3d 217, 226 (Tex. 2004).
The plaintiff has the initial burden to plead facts
affirmatively showing that the trial court has jurisdiction.
Tex. Ass’n of Bus. v. Tex. Air Control Bd., 852 S.W.2d 440,
446 (Tex. 1993). We construe the pleadings liberally in
favor of the pleader, look to the pleader’s intent, and
accept as true the factual allegations in the pleadings. See
Miranda, 133 S.W.3d at 226, 228.
Here, the issue of immunity turns on the trial court’s
construction of constitutional and statutory provisions,

4a
which are decisions that we review de novo. See Harris
Cty. Hosp. Dist. v. Tomball Reg’l Hosp., 283 S.W.3d 838,
842 (Tex. 2009).
B. Applicable Law
The doctrine of sovereign immunity holds that “no
state can be sued in her own courts without her consent,
and then only in the manner indicated by that consent.”
Tooke v. City of Mexia, 197 S.W.3d 325, 331 (Tex. 2006)
(citing Hosner v. DeYoung, 1 Tex. 764, 769 (1847)); see
Nevada v. Hall, 440 U.S. 410, 414 (1979) (“The immunity
of a truly independent sovereign from suit in its own
courts has been enjoyed as a matter of absolute right for
centuries. Only the sovereign’s own consent could qualify
the absolute character of that immunity.”). Thus, unless
waived by the Texas Legislature or abrogated by the
United States Congress, sovereign immunity deprives a
Texas trial court of subject-matter jurisdiction over any
lawsuit against a Texas governmental agency such as
DPS. Tex. Parks & Wildlife Dep’t v. Sawyer Tr., 354
S.W.3d 384, 388 (Tex. 2011).
USERRA provides that “[a] person who is a member
of . . . a uniformed service shall not be denied . . .
reemployment . . . or any benefit of employment by an
employer on the basis of that membership . . . .” 38
U.S.C.A. § 4311(a). Subchapter III of USERRA sets forth
a procedure under which employees may seek assistance
in investigating and enforcing their claims of USERRA
violations. See id. § 4321–4327. Under that subchapter, a
person who claims entitlement to employment or
reemployment rights under USERRA may file a
complaint with the Secretary of Labor, who must then
investigate the claim. Id. § 4322(a), (d). If the Secretary of
Labor cannot resolve the complaint, the claimant may
request that the Secretary refer the claim to the Attorney
General, who must then decide whether to appear on

5a
behalf of, or act as attorney for, the claimant. Id.
§§ 4323(a)(1), (2). The statute then provides:
A person may commence an action for relief with
respect to a complaint against a State (as an
employer) or a private employer if the person
(A) has chosen not to apply to the Secretary for
assistance under section 4322(a) of this title;
(B) has chosen not to request that the Secretary
refer the complaint to the Attorney General under
paragraph (1); or
(C) has been refused representation by the
Attorney General with respect to the complaint
under such paragraph.
Id. § 4323(a)(3). The following subsection, entitled
“Jurisdiction,” states:
(1) In the case of an action against a State (as an
employer) or a private employer commenced by the
United States, the district courts of the United States
shall have jurisdiction over the action.
(2) In the case of an action against a State (as an
employer) by a person, the action may be brought in
a State court of competent jurisdiction in accordance
with the laws of the State.
(3) In the case of an action against a private employer
by a person, the district courts of the United States
shall have jurisdiction of the action.
Id. § 4323(b) (emphasis added).
C. Analysis
Torres alleged in his suit that the trial court had
jurisdiction pursuant to USERRA section 4323(b)(2). See
id. § 4323(b)(2). In its plea to the jurisdiction, DPS argued
that its immunity to a private suit in state court for

6a
damages under USERRA has neither been validly
abrogated by Congress nor validly waived by the
legislature. See Sawyer Tr., 354 S.W.3d at 388.
1. Abrogation of Immunity by Congress
We first address whether Congress has validly
abrogated immunity with its enactment of USERRA. For
Congress to validly abrogate a State’s sovereign
immunity, it must (1) unequivocally express its intent to
do so, and (2) act “pursuant to a constitutional provision
granting Congress the power to abrogate.” Univ. of Tex.
at El Paso v. Herrera, 322 S.W.3d 192, 195 (Tex. 2010).1
DPS argues that Congress has the constitutional
power to abrogate a State’s sovereign immunity to suits
in its own courts only when exercising its powers under
section 5 of the Fourteenth Amendment, and never when
exercising the powers granted to it by Article I of the
Constitution. It relies on Alden v. Maine, in which the
United States Supreme Court broadly held that “[t]he
powers delegated to Congress under Article I of the
United States Constitution do not include the power to
subject nonconsenting States to private suits for damages
in state courts.” 527 U.S. 706, 712 (1999). USERRA was
arguably enacted pursuant to Congress’s Article I War
Powers, see U.S. CONST. art. I, § 8, cl. 11–16; therefore,
according to DPS, USERRA cannot constitutionally
The dissent acknowledges that both of these prongs must be satisfied in order for Congress to effectively abrogate State immunity, but
it addresses only the first prong. It suggests, based on a cursory examination of legislative history, that Congress intended to abrogate
State immunity by enacting USERRA. The dissent does not dispute
our conclusion, which we will explain herein, that Congress lacked the
power to abrogate pursuant to the Constitution. Such power is a necessary prerequisite to finding that Congress abrogated State immunity. See Univ. of Tex. at El Paso v. Herrera, 322 S.W.3d 192, 195 (Tex.
2010). Therefore, the dissent’s discussion regarding Congressional intent is irrelevant. See TEX. R. APP. P. 47.1.

1

7a
abrogate its sovereign immunity to private suits for
damages in Texas courts.
The United States Supreme Court held in Seminole
Tribe of Florida v. Florida that Congress lacks power
under Article I to abrogate States’ sovereign immunity to
suits commenced or prosecuted in federal courts. 517 U.S.
44, 66, 76 (1996) (overruling Pennsylvania v. Union Gas
Co., 491 U.S. 1, 23 (1989)); see also U.S. CONST. amend
XI (“The Judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.”). In Alden, the Court was
asked whether the Seminole Tribe holding applies equally
to suits brought in State courts; specifically, it considered
whether the federal Fair Labor Standards Act of 1938
(FLSA) validly abrogated Maine’s sovereign immunity to
private suits for damages in its own courts. 527 U.S. at
711–12.
Justice Kennedy, writing for a 5–4 majority, held that
even though the Eleventh Amendment does not address
jurisdiction of State courts, see U.S. CONST. amend. XI,
immunity from suit “is a fundamental aspect of the
sovereignty which the States enjoyed before the
ratification of the Constitution, and which they retain
today . . . except as altered by the plan of the Convention
or certain constitutional Amendments.” Alden, 527 U.S at
713.2 Thus, the States retain “a residuary and inviolable
sovereignty” which includes immunity to non-consensual
The Court noted that, though a State’s immunity from suit is sometimes referred to as “Eleventh Amendment immunity,” that phrase
is “something of a misnomer” because “the sovereign immunity of the
States neither derives from, nor is limited by, the terms of the Eleventh Amendment.” Alden v. Maine, 527 U.S. 706, 712–13 (1999); see
Hoff v. Nueces Cty., 153 S.W.3d 45, 48 (Tex. 2004).

2

8a
suits in its own courts “save where there has been ‘a
surrender of this immunity in the plan of the convention.’”
Id. at 715, 730 (quoting Principality of Monaco v.
Mississippi, 292 U.S. 313, 322–23 (1934)). The Court held:
“In exercising its Article I powers Congress may subject
the States to private suits in their own courts only if there
is ‘compelling evidence’ that the States were required to
surrender this power to Congress pursuant to the
constitutional design”; that is, there must be “compelling
evidence” that “this derogation of the States’ sovereignty
is ‘inherent in the constitutional compact.’” Id. at 731, 741
(quoting Blatchford v. Native Vill. of Noatak & Circle
Vill., 501 U.S. 775, 781 (1991)). After reviewing the
“history, practice, precedent, and structure of the
Constitution,” the Court concluded that the States’
“immunity from private suit in their own courts” is
“beyond the congressional power to abrogate by Article I
legislation.” Id. at 754. Therefore, Maine’s sovereign
immunity could not be validly abrogated by the FLSA,
which was enacted pursuant to Congress’s Article I power
to regulate interstate commerce. Id.; see 29 U.S.C.A.
§ 202(b) (West, Westlaw through P.L. 115-223).
The Alden majority observed, however, that the
States’ immunity to suit in their own courts is not
unlimited; for example, States may waive immunity by
consenting to suit, or their immunity may be
“surrendered” by the adoption of a constitutional
amendment. Alden, 527 U.S. at 712. For example, in
adopting the Fourteenth Amendment, the States
“surrender[ed] a portion of the sovereignty that had been
preserved to them by the original Constitution”;
therefore, Congress may validly abrogate a State’s
immunity in its own courts under section 5 of that
amendment, which grants Congress the “power to
enforce” the provisions of the amendment by
“appropriate legislation.” Id. at 756 (citing Fitzpatrick v.

9a
Bitzer, 427 U.S. 445 (1976)); see U.S. CONST. amend. XIV,
§ 5.
Here, there is no suggestion that USERRA was
enacted pursuant to Congress’s powers under section 5 of
the Fourteenth Amendment; instead, the parties agree
that it was enacted pursuant to Congress’s Article I
powers. Nevertheless, Torres argues that Alden did not
categorically preclude abrogation of sovereign immunity
in all Article I laws. Torres contends instead that Alden’s
holding applies narrowly to the specific legislation
considered in that case (the FLSA) and the specific
Article I enumerated power under which that legislation
was enacted (the interstate commerce clause). See U.S.
CONST. art. I, § 8, cl. 3. To the extent Alden purported to
reject abrogation of sovereign immunity in any other
Article I legislation, Torres alleges that such holding is
merely dicta. More specifically, Torres contends that
USERRA was enacted pursuant to Congress’s War
Powers, see U.S. CONST. art. I, § 8, cl. 11–16, and that
Congress could validly abrogate state immunity in its
exercise of those powers because there is “compelling
evidence” that the States “were required to surrender”
War Powers to Congress “pursuant to the constitutional
design.” See Alden, 527 U.S. at 731, 741 (quoting
Blatchford, 501 U.S. at 781).
In support of this narrow reading of Alden, Torres
cites Diaz-Gandia v. Dapena-Thompson, 90 F.3d 609 (1st
Cir. 1996) and Central Virginia Community College v.
Katz, 546 U.S. 356 (2006). In Diaz-Gandia, the federal
First Circuit Court of Appeals held that claims brought
by a private plaintiff against State entities under the
Veterans’ Reemployment Rights Act (VRRA), the
predecessor of USERRA, were not barred by sovereign
immunity. 90 F.3d at 616 (relying on Reopell v.
Massachusetts, 936 F.2d 12, 16 (1st Cir. 1991) (“[P]assage
of the VRRA—assuming Congress expressed its

10a
intention to abrogate with adequate clarity—removed the
Eleventh Amendment bar to damages actions brought
under the Act against a state.”)). Diaz-Gandia was
decided after Seminole Tribe, but before Alden.
Accordingly, it reflects the First Circuit’s determination
that, notwithstanding Seminole Tribe, States are
amenable to private suits in federal court if suit is
authorized pursuant to Congress’s War Powers. See id.
In Katz, the United States Supreme Court
considered whether, despite Seminole Tribe and Alden, a
private plaintiff was authorized to sue State entities under
federal bankruptcy legislation. See 546 U.S. 356, 359. The
statutes at issue in that case, enacted under Congress’s
Article I bankruptcy powers, purport to abrogate
sovereign immunity for, inter alia, suits by bankruptcy
trustees to set aside “preferential transfers” by the
debtor to state agencies. See 11 U.S.C.A. §§ 106, 547(b),
550(a) (West, Westlaw through P.L. 115-223). In another
5–4 opinion, the Katz Court rejected the defendants’
sovereign immunity defense to a suit brought pursuant to
those statutes, concluding that that the States “agreed in
the plan of the Convention not to assert any sovereign
immunity defense they might have had in proceedings
brought pursuant to ‘Laws on the subject of
Bankruptcies.’” Katz, 546 U.S. at 377 (quoting U.S.
CONST. art. I, § 8, cl. 4 (authorizing Congress to establish
“uniform Laws on the subject of Bankruptcies throughout
the United States”)).3 The Court noted, however, that
“[b]ankruptcy jurisdiction, at its core, is in rem” and
therefore “does not implicate States’ sovereignty to
nearly the same degree as other kinds of jurisdiction.” Id.
The Katz Court acknowledged that both the majority and dissenting
opinions in Seminole Tribe “reflected an assumption that the holding
in that case would apply to the Bankruptcy Clause.” Cent. Va. Cmty.
Coll. v. Katz, 546 U.S. 356, 363 (2006). The Court found that
assumption to be “erroneous.” Id.

3

11a
at 362 (citing Tenn. Student Assistance Corp. v. Hood, 541
U.S. 440, 450 (2004) (noting that a bankruptcy debtor
“does not seek monetary damages or any affirmative
relief from a State by seeking to discharge a debt; nor
does he subject an unwilling State to a coercive judicial
process. He seeks only a discharge of his debts”)).
We decline to interpret Alden narrowly as suggested
by Torres. Our decision is based on the broad language
used in the opinion itself and is in accord with the
decisions of the other State courts that have considered
the issue.
First, we observe that in analyzing whether Congress
validly abrogated state immunity, the Alden majority
opinion did not mention the subject matter of the
legislation at issue, nor did it mention the specific Article
I enumerated power pursuant to which that legislation
was enacted. See 527 U.S. at 731–55. This strongly implies
that the Alden holding was intended to apply to laws
enacted pursuant to any of the powers of Congress
enumerated in Article I—not just laws, such as FLSA,
enacted under the interstate commerce clause.
Second, the plain language of USERRA indicates
that it was not, strictly speaking, enacted pursuant to
Congress’s War Powers as enumerated in Article I,
section 8; rather, it was enacted pursuant to the
Necessary and Proper Clause of that section. See U.S.
CONST. art. I, § 8, cl. 11–16 (War Powers),4 cl. 18
The enumerated War Powers granted to Congress in Article I,
section 8 are as follows:
To declare War, grant Letters of Marque and Reprisal, and make
Rules concerning Captures on Land and Water;
To raise and support Armies, but no Appropriation of Money to
that Use shall be for a longer Term than two Years;
To provide and maintain a Navy;

4

12a
(Necessary and Proper Clause). The Alden Court
specifically rejected the notion that the Necessary and
Proper Clause of Article I granted Congress “the
incidental authority to subject the States to private suits
as a means of achieving objectives otherwise within the
scope of the enumerated powers.” 527 U.S. at 732.
Therefore, regardless of whether the ruling in Alden is
applicable to War Powers legislation, it is indisputably
applicable to USERRA as legislation enacted under the
Necessary and Proper Clause.
Subsequent case law generally supports the broad
principle that, under Seminole Tribe and Alden, state
agencies’ immunity to private suits in both federal and
state courts cannot be abrogated by Article I legislation.
Though Katz recognized a limited exception to this rule
for actions to enforce certain bankruptcy statutes, the
Court made clear that this exception is derived from the
particular attributes of in rem bankruptcy jurisdiction
which are not present in this case. See 546 U.S. at 377;
Clark v. Va. Dep’t of State Police, 793 S.E.2d 1, 7 (Va.
2016) (stating that the Katz “qualification” is “applicable
only to claims arising within a federal bankruptcy court’s
in rem jurisdiction over a bankruptcy estate” and “does
not apply to [appellant]’s state-court claim for in
To make Rules for the Government and Regulation of the land and
naval Forces; [and]
To provide for calling forth the Militia to execute the Laws of the
Union, suppress Insurrections and repel Invasions;
To provide for organizing, arming, and disciplining, the Militia, and
for governing such Part of them as may be employed in the Service
of the United States, reserving to the States respectively, the
Appointment of the Officers, and the Authority of training the
Militia according to the discipline prescribed by Congress . . . .
U.S. CONST. art. I, § 8, cl. 11–16. As DPS notes, the regulation of nonmilitary employment discrimination against members of the armed
forces is not among these enumerated powers.

13a
personam damages” under USERRA); see also Agostini
v. Felton, 521 U.S. 203, 237 (1997) (stating that “[i]f a
precedent of this Court has direct application in a case,
yet appears to rest on reasons rejected in some other line
of decisions, the Court of Appeals should follow the case
which directly controls, leaving to this Court the
prerogative of overruling its own decisions”).
Diaz-Gandia is more difficult to distinguish. The
federal appeals court in that case specifically held that the
holding of Seminole Tribe does not extend to laws enacted
pursuant to Congress’s War Powers. See 90 F.3d at 616
n.9. But, as at least two federal district courts have
recognized, the decision in Diaz-Gandia appears to have
been based on an incorrect observation that “no
subsequent development has undermined Reopell,” the
case upon which that decision relied. See Risner v. Ohio
Dep’t of Rehab. & Corr., 577 F. Supp. 2d 953, 964 (N.D.
Ohio 2008) (noting that “the decision in Diaz–Gandia is
undermined by the fact that Reopell was based upon
Pennsylvania v. Union Gas Co., . . . which was overruled
by Seminole Tribe”); Palmatier v. Mich. Dep’t of State
Police, 981 F. Supp. 529, 532 (W.D. Mich. 1997) (declining
to follow Diaz-Gandia and Reopell because they are
based on Pennsylvania v. Union Gas Co. and therefore
“their continuing vitality is suspect” in light of Seminole
Tribe).
In any event, the federal Fifth Circuit Court of
Appeals has directly stated, contrary to Diaz-Gandia,
that Seminole Tribe applies to War Powers legislation.
Ysleta Del Sur Pueblo v. Laney, 199 F.3d 281, 288 (5th
Cir. 2000) (citing Fla. Prepaid Postsecondary Educ.
Expense Bd. v. Coll. Sav. Bank, 527 U.S. 627, 636 (1999)
(“Seminole Tribe makes clear that Congress may not
abrogate state sovereign immunity pursuant to its Article
I powers[.]”)). And several state appellate courts,
applying both Seminole Tribe and Alden, have specifically

14a
concluded that the sovereign immunity of state agencies
is not abrogated for suits in state courts brought under
section 4323(b) of USERRA. See Breaker v. Bemidji State
Univ., 899 N.W.2d 515, 524 (Minn. Ct. App. 2017)
(concluding that “Congress lacked authority under the
Article 1 War Powers Clause to abrogate state sovereign
immunity from USERRA claims in state court”); Clark,
793 S.E.2d at 7 (“Alden’s holding was unqualified:
Nonconsenting States cannot be forced to defend ‘private
suits’ seeking in personam remedies ‘in their own courts’
based upon ‘the powers delegated to Congress under
Article I of the United States Constitution.’”); Anstadt v.
Bd. of Regents of Univ. Sys. of Ga., 487, 693 S.E.2d 868,
871 (Ga. Ct. App. 2010) (rejecting the argument that “the
enactment of USERRA abrogated the state’s sovereign
immunity because it was enacted pursuant to Congress’s
war powers”); Janowski v. Div. of State Police, 981 A.2d
1166, 1170 (Del. 2009) (holding that “[USERRA] could not
abrogate state sovereign immunity, because Congress
passed that law pursuant to its Article I, Section 8 war
powers”); Larkins v. Dep’t of Mental Health & Mental
Retardation, 806 So.2d 358, 362–63 (Ala. 2001) (“Alden
forecloses, on constitutional grounds, resort to Article I as
the basis for subjecting the State of Alabama to suit in a
state court on a remedy based upon Congress’s assertion
of its powers with respect to military preparedness.”).5
These cases either implicitly or explicitly reject the
contention, made by Torres here, that Alden is nonThough the Texas Supreme Court has not explicitly weighed in on
the matter at issue here, it has used language suggestive of a broad
interpretation of Alden. See Hoff, 153 S.W.3d at 48 (stating that,
under Alden, sovereign immunity “protects nonconsenting states
from being sued in their own courts for federal law claims”). The Fifth
Circuit has held that there is no private right of suit in federal court
under USERRA section 4323(b), but it declined to address whether
that section effectively abrogates Texas’s sovereign immunity. See
McIntosh v. Partridge, 540 F.3d 315, 321 n.5 (5th Cir. 2008).

5

15a
binding dicta to the extent it purports to pass judgment
over legislation other than the FLSA.
Though these cases are not binding,6 they are directly
on point and persuasive. We therefore follow them and
reject the flawed reasoning in Diaz-Gandia. Accordingly,
we conclude that, pursuant to the binding precedent of the
United States Supreme Court in Seminole Tribe and
Alden, DPS’s sovereign immunity to private claims in
state court has not been validly abrogated by USERRA.7

See Penrod Drilling Corp. v. Williams, 868 S.W.2d 294, 296 (Tex.
1993) (“While Texas courts may certainly draw upon the precedents
of the Fifth Circuit, or any other federal or state court, in determining
the appropriate federal rule of decision, they are obligated to follow
only higher Texas courts and the United States Supreme Courtee.”).
7
DPS further argues that, even if Congress had the authority to
abrogate sovereign immunity to private suits in state court through
USERRA, it has not unequivocally expressed its intent to do so in
USERRA section 4323(b)(2). See Herrera, 322 S.W.3d at 195. It notes
that, according to the statute, such suits are subject to “the laws of
the State,” but the legislature has not waived DPS’s immunity under
state law. See 38 U.S.C.A. § 4323(b)(2) (West, Westlaw through P.L.
115-223); Smith v. Tenn. Nat’l Guard, 387 S.W.3d 570, 574 (Tenn. Ct.
App. 2012) (interpreting section 4323(b)(2) to mean that “for an
individual to sustain an action against a state pursuant to USERRA,
the action must be permitted by state law”). DPS further notes that
section 4323(b)(2) states that suit “may” be brought, whereas sections
4323(b)(1) and (b)(3), which purport to authorize suit in federal court,
state that suit “shall” be brought. See 38 U.S.C.A. § 4323(b)(1)–(3). In
response, Torres notes that section 4323(b)(2) was enacted soon after
Seminole Tribe and the intent of Congress was to ensure that
plaintiffs have a forum—state court—in which they can bring
USERRA claims against state agencies.
We need not and do not address whether Congress has
unequivocally expressed its intent to abrogate state sovereign
immunity in section 4323(b)(2), because we have already concluded
that it lacked the Constitutional authority to do so. See Alden, 527
U.S. at 712; Herrera, 322 S.W.3d at 195; see also TEX. R. APP. P. 47.1.
6

16a
2. Waiver of Immunity by the Legislature
We next address whether DPS’s sovereign immunity
has been validly waived by the Texas Legislature. For the
legislature to validly waive sovereign immunity, it must
consent to suit by “clear and unambiguous” statutory
language. TEX. GOV’T CODE ANN. § 311.034 (West,
Westlaw through 2017 1st C.S.) (“In order to preserve the
legislature’s interest in managing state fiscal matters
through the appropriations process, a statute shall not be
construed as a waiver of sovereign immunity unless the
waiver is effected by clear and unambiguous language.”);
Tooke, 197 S.W.3d at 332–33. Any ambiguity in a statute
must be resolved in favor of retaining immunity. Tooke,
197 S.W.3d at 330, 342 (holding that statutory provisions
providing that state entities may “sue and be sued” or
“plead and be impleaded” are unclear and ambiguous and
therefore do not, by themselves, waive immunity); see
Wichita Falls State Hosp. v. Taylor, 106 S.W.3d 692, 697
(Tex. 2003).
At the trial court and on appeal, Torres argues that
the legislature demonstrated its intent to waive sovereign
immunity in this case by enacting chapter 437 of the
government code. See TEX. GOV’T CODE ANN. § 437.001–
.419 (West, Westlaw through 2017 1st C.S.) (entitled
“Texas Military”). Under section 437.202 of that chapter,
a state employee who is a member of “a reserve
component of the armed forces” and is ordered to duty “is
entitled, when relieved from duty, to be restored to the
position that the employee held when ordered to duty.”
Id. § 437.202(d). Section 437.204, entitled “Reemployment
of Service Member Called to Training or Duty,” provides
that “[a]n employer may not terminate the employment of
an employee who is a member of the state military forces
of this state or any other state because the employee is
ordered to authorized training or duty by a proper
authority” and that “[t]he employee is entitled to return

17a
to the same employment held when ordered to training or
duty . . . .” Id. § 437.204(a).8 Section 437.402 states that
“[a] person claiming to be aggrieved by an unlawful
employment practice under Section 437.204 or the
person’s agent may file a complaint” with the Texas
Workforce Commission (TWC). Id. § 437.402(a). If the
TWC dismisses the complaint or fails to resolve it, the
complainant is entitled to request a notice of the
complainant’s right to file a civil action. Id. § 437.411(a).
The complainant may then bring a civil action against the
employer within sixty days after receiving that notice. Id.
§ 437.412. On finding that an employer engaged in an
“intentional unlawful employment practice” under section
437.204, a court may award compensatory and punitive
damages, but it may not award back pay. Id. § 437.416(a),
(c).
Torres contends that government code chapter 437 is
similar to statutes in New Mexico and Wisconsin which
have been held, by courts in those states, to evince a
legislative intent to waive sovereign immunity for
USERRA claims. See Ramirez v. State of N.M. Children,
Youth & Families Dep’t, 372 P.3d 497 (N.M. 2016); Scocos
v. State of Wis. Dep’t of Veteran Affairs, 819 N.W.2d 360
(Wis. App. 2012). But, as DPS notes, the statutes involved
in those cases are distinguishable because they explicitly
refer to USERRA or to federal law generally. See
Torres was not a member of “the state military forces of this state
or any other state.” See TEX. GOV’T CODE ANN. § 437.204(a) (West,
Westlaw through 2017 1st C.S.). However, “service member” is
defined as “a member or former member of the state military forces
or a component of the United States armed forces, including a reserve
component.” Id. § 437.001(8) (West, Westlaw through 2017 1st C.S.).
In any event, we need not determine whether Torres, as a United
States Army reservist, was eligible to sue under chapter 437 because
of our conclusion herein that he did not exhaust administrative
remedies with regard to any such claim.
8

18a
Ramirez, 372 P.3d at 505 (construing N.M. STAT. ANN.
§ 20-4-7.1 (West, Westlaw through 2018 2nd R.S.) (“The
rights, benefits and protections of [USERRA] shall apply
to a member of the national guard ordered to federal or
state active duty for a period of thirty or more consecutive
days.”)); Scocos, 819 N.W.2d at 366 (construing WIS.
STAT. ANN. § 321.64(2) (West, Westlaw through 2017 Act
367) (providing that the discharge of persons restored to
state employment after military service is “subject to all
federal . . . laws”)).
We need not determine whether the New Mexico and
Wisconsin statutes are analogous to government code
chapter 437 because, to the extent chapter 437 waives
sovereign immunity, it does so only in cases in which the
administrative process has been exhausted as set forth in
the chapter. See TEX. GOV’T CODE ANN. § 311.034
(“Statutory prerequisites to a suit, including the provision
of notice, are jurisdictional requirements in all suits
against a governmental entity.”). There is no dispute that
Torres has not exhausted his administrative remedies
with respect to his claims against DPS. Accordingly,
assuming but not deciding that section 437.412 clearly and
unambiguously waives sovereign immunity for certain
claims, Torres has not alleged facts showing that the trial
court had jurisdiction over his claims in particular. See id.
§ 311.034; Tex. Ass’n of Bus., 852 S.W.2d at 446.9
As the dissent notes, Texas Government Code chapter 613, entitled
“Reemployment Following Military Service,” explicitly provides that
a State employee who leaves to enter active military service and is
later discharged from service “is entitled to be reemployed” in the
same position or “a position of similar seniority, status, and pay” at
the same State agency. TEX. GOV’T CODE ANN. § 613.002(a) (West,
Westlaw through 2017 1st C.S.). If the employee sustained a disability
during military service that prevents the employee from performing
the duties of such a position, the employee is entitled to be
reemployed “in a position that the employee can perform and has:
9

19a
III. CONCLUSION
For the reasons set forth herein, DPS’s immunity to
Torres’s suit has not been validly abrogated by Congress
or waived by the Texas Legislature.10 Accordingly, we
(1) like seniority, status, and pay as the former position; or (2) the
nearest possible seniority, status, and pay to the former position.” Id.
§ 613.003 (West, Westlaw through 2017 1st C.S.).
Torres does not contend that section 613.021 waives DPS’s
immunity to USERRA claims in state court; in fact, the record
contains no references to chapter 613 by any party, and it is not
mentioned on appeal. In any event, this statute does not clearly and
unambiguously waive DPS’s immunity to his specific claims. That is
because, to the extent chapter 613 waives immunity, it does so only
for suits seeking to compel “a public official to comply with” the
provisions of the chapter—it does not authorize the recovery of
monetary damages. See id. § 613.021(a) (West, Westlaw through 2017
1st C.S.). Torres’s petition did not seek an order compelling DPS to
restore his employment; rather, it sought only a declaration that
DPS’s actions were unlawful, a judgment for “compensatory and/or
liquidated damages,” and attorney’s fees and costs. Those remedies
are not recoverable under chapter 613. See id. It follows that
sovereign immunity is not waived for a suit seeking those remedies.
See Zachry Const. Corp. v. Port of Hous. Auth. of Harris Cty., 449
S.W.3d 98, 110 (Tex. 2014) (holding that chapter 271 of the Texas
Local Government Code “does not waive immunity from suit on a
claim for damages not recoverable” under that statute); Tooke v. City
of Mexia, 197 S.W.3d 325, 346 (Tex. 2006) (same).
10
The dissent argues that our ruling leaves our armed forces with “no
remedy in state courts when they have faced employment
discrimination from a state agency due to their service to our
country.” Respectfully, that is incorrect. State military forces may
sue under chapter 437, provided that administrative remedies are
exhausted. See TEX. GOV’T CODE ANN. § 613.021(a). And as the
dissent seems to acknowledge, a state employee claiming
employment discrimination due to federal military service may sue,
notwithstanding sovereign immunity, under Texas Government Code
chapter 613. See TEX. GOV’T CODE ANN. § 613.021(a). Had Torres
sued under this statute and proved his case, he would have been
entitled to an order compelling DPS to reemploy him, despite his
disability, “in a position that [he] can perform and has: (1) like

20a
reverse the trial court’s judgment and render judgment
granting DPS’s plea to the jurisdiction.
DORI CONTRERAS
Justice
Dissenting Opinion by
Justice Benavides.
Delivered and filed the 20th
day of November, 2018.

seniority, status, and pay as the former position; or (2) the nearest
possible seniority, status, and pay to the former position.” Id.
§ 613.003.
To the extent the precise remedy sought by Torres—i.e., monetary
damages—is unavailable to him, it is not this Court that is depriving
him of that option. Rather, the Texas Legislature has chosen not to
waive immunity for that remedy.

21a

NUMBER 13-17-00659-CV
COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
CORPUS CHRISTI - EDINBURG
TEXAS DEPARTMENT OF
PUBLIC SAFETY,
Appellant,
v.
LEROY TORRES,
Appellee.
On appeal from the County Court at Law No. 1
of Nueces County, Texas.
DISSENTING OPINION
Before Justices Contreras, Benavides, and Longoria
Dissenting Opinion by Justice Benavides
I write separately to respectfully dissent to the
majority’s conclusion that the trial court erred in denying
the Department of Public Safety’s (DPS) plea to the

22a
jurisdiction regarding Leroy Torres’s Uniformed
Services Employment and Reemployment Rights Act
(USERRA) claim. See 38 U.S.C.A. §§ 4301–4335 (West,
Westlaw through P.L. 115-223). The majority’s opinion
leads our armed forces to have no remedy in state courts
when they have faced employment discrimination from a
state agency due to their service to our country.
A. Congressional Actions
The majority lays out a detailed history of abrogation
of immunity by Congress through Supreme Court case
law. To find abrogation by Congress, there must be an
unequivocal intent to do so by Congress and action
pursuant to a constitutional provision allowing such
abrogation. See Univ. of Tex. at El Paso v. Herrera, 322
S.W.3d 192, 195 (Tex. 2010). Although DPS and the
majority relies on Alden v. Maine, 527 U.S. 706 (1999), we
cannot overlook the legislative committee report that
came out of the USERRA legislation. House Report
Number 105-448, which coincided with the introduction of
the current version of USERRA, states that USERRA is
a “continuation of policy enacted in 1940” and “applies to
all employers, regardless of their size.” H.R. Rep. No.
105-448, at 2 (1998). The House Report addresses the
position taken by some states that the Eleventh
Amendment makes USERRA inapplicable to state
agencies, addressing the holding in Seminole Tribe of
Florida v. Florida. Id. at 3 (citing 517 U.S. 44 (1996)). The
House Report states the
decisions [also referring to an Indiana and a Michigan
court decision under former versions of USERRA]
threaten not only a long-standing policy protecting
individuals’ employment right [sic], but also raise
serious questions about the United States [sic] ability
to provide for a strong national defense. Far more
than in the days when the Constitution was being

23a
drafted, the peace enjoyed throughout much of the
world is dependent on the responsive and powerful
armed forces of the United States. Accordingly, to
assure that the policy of maintaining a strong national
defense is not inadvertently frustrated by States
refusing to grant employees the rights afforded to
them by USERRA, the committee is favorably
reporting this legislation.
Id. at 5.
It is hard to imagine, based on the language found in
the House Report requesting the Committee on Veterans’
Affairs to recommend the current version of the
legislation to a full House vote, that Congress did not
intend to allow private citizens who served in the armed
forces the ability to sue state agencies under USERRA in
state courts. The report shows that Congress intended to
protect citizens who served our country in suits against a
state when they were discriminated against by an
employer upon returning from combat. The House Report
supports the intention to abrogate state sovereign
immunity under USERRA.
B. State Actions
The Texas Legislature also added certain provisions
to the Texas Government Code which provide special
protections to members of the armed forces returning to
their former employment. Those protections give former
servicemembers a remedy to seek if they are
discriminated against. I argue that those provisions prove
an intent of the Texas Legislature to waive sovereign
immunity in these narrow exceptions.
The parties and the majority refer to chapter 437 of
the government code, entitled “Texas Military.” See TEX.
GOV’T CODE ANN. § 437.401–419 (titled “Administrative
Review and Judicial Enforcement”) (West, Westlaw

24a
through 2017 1st C.S.). A member of the state military
forces would be entitled to restoration to his former
position of employment if he was called into duty. See id.
§ 437.202(d) (West, Westlaw through 2017 1st C.S.). Any
issues with reemployment are referred to the Texas
Workforce Commission. See id. § 437.402(a). Although
chapter 437 shows an intent of the legislature to protect
Texas service members, the majority mainly refers to its
administrative remedies and finds that Torres has not
exhausted all administrative remedies available to him.
However, under USERRA, Torres could file a claim with
the Secretary of Labor and petition the United States
Attorney General to represent him in federal court or
could file a claim on his own in state district court. See 38
U.S.C.A. § 4323(a)(1), (3) (emphasis added). Torres is not
required under USERRA to first file a claim with an
administrative agency. See id. Therefore, the majority’s
statement that Torres has not exhausted all his
administrative remedies and not raised facts showing the
trial court had jurisdiction over his claims is puzzling.
Additionally, the majority’s statement that “assuming but
not deciding that section 437.412 clearly and
unambiguously waives sovereign immunity for certain
claims” but not Torres’s is confusing. It appears the
majority concludes that the State’s sovereign immunity
would be waived if Torres had exhausted all his
administrative remedies. However, since no specific
administrative procedures are required under USERRA
and Torres followed the requirements of USERRA, then
it would rationally follow that the majority agrees that
chapter 437 would waive the state’s sovereign immunity.
Besides chapter 437, I would argue that chapter 613
of the government code is applicable to Torres’s claim.
While I agree that chapter 437 applies to Texas state
military, chapter 613, titled “Reemployment Following
Military Service,” includes wording to specifically include

25a
federal and state military servicemembers. The majority
addresses government code chapter 613 in a footnote.1
Chapter 613, defines “military service” as service as
a member of the Armed Forces of the United States,
Texas National Guard, Texas State Guard, or reserve
component of the Armed Forces of the United States.
TEX. GOV’T CODE ANN. § 613.001 (West, Westlaw through
2017 1st C.S.). Chapter 613.002 states:
(a) A public employee who leaves a state position or a
position with a local governmental entity to enter
active military service is entitled to be reemployed:
(1) by the state or the local governmental entity;
(2) in the same department, office, commission, or
board of this state, a state institution, or local
governmental entity in which the employee was
employed at the time of the employee’s induction
or enlistment in, or order to, active military
service; and
(3) in:
(A) the same position held at the time of the
induction, enlistment, or order;
or
(B) a position of similar seniority, status, or
pay.
(b) To be entitled to reemployment under Subsection
(a), the employee must be:
...

Although as the majority points out, neither party raised this section
in their briefs before this Court.

1

26a
(2) physically and mentally qualified to perform
the duties of that position.
Id. § 613.002 (West, Westlaw through 2017 1st C.S.).
Chapter 613.003 includes:
A public employee who cannot perform the duties of
a position to which the employee is otherwise entitled
under Section 613.002 because of a disability the
employee sustained during military service is entitled
to be reemployed in the department, office,
commission, or board of the state, a state institution,
or a local government entity in a position that the
employee can perform and that has:
(1) like seniority, status, and pay as the former
position; or
(2) the nearest possible seniority, status, and pay
to the former position.
Id. § 613.003 (West, Westlaw through 2017 1st C.S.).
Additional provisions in chapter 613 lay out the
procedure for compliance with the law:
(a) If a public official fails to comply with a provision
of Subchapter A, a district court in a district in which
the individual is a public official may require the
public official to comply with the provision on the
filing of a motion, petition, or other appropriate
pleading by an individual entitled to a benefit under
the provision.
Id. § 613.021 (West, Westlaw through 2017 1st C.S.).
Chapter 613.022 allows for the district attorney in the
appropriate district to act in place of the individual filing
under this provision. See id. § 613.022.
Chapter 613 allows a servicemember who was
aggrieved by a public official (which a state agency would
fall under) to file suit in a state district court and force the

27a
official to comply with the reemployment requirements of
chapter 613, similar to USERRA. Id. Although the
majority states that chapter 613 would not apply in this
case because Torres only requested monetary damages in
his petition, doing so would ignore that chapter 613 falls
in line with one of the remedies offered under USERRA,
which can also include a request for reemployment. See
id.; 38 U.S.C.A. § 4323. By following the majority’s
reasoning, it would seem that if Torres had filed suit and
requested reemployment (as he originally tried to do upon
his return from active duty) instead of requesting
damages under USERRA, then the majority would agree
there was abrogation by the state legislature. But due to
the fact Torres requested damages, as allowed by
USERRA, the majority finds there is no abrogation by
the Texas Legislature under this provision. We cannot
split a code provision in half. Either we find that under
section 613, the Texas legislature clearly intended to
abrogate its sovereign immunity in cases involving
reemployment of military servicemembers or we remand
this case back to the trial court and allow Torres to
replead his grounds.
As a final note, USERRA also includes the term
“private employer,” which includes a political subdivision
of the State. 38 U.S.C.A. § 4323(i). A “political
subdivision” is defined as a “division of a state that exists
primarily to discharge some function of local
government.” Political Subdivision, BLACK’S LAW
DICTIONARY (10th ed. 2014). An individual bringing suit
under USERRA can sue a “private employer” in federal
district court. See 38 U.S.C.A. § 4323(b)(3). Chapter 613
also finds that servicemembers that previously had
positions with local governmental entities have the right
to sue for reemployment. See TEX. GOV’T CODE ANN.
§ 613(a)(1). Congress specifically included language to
make sure a local government agency could be sued in

28a
federal court and seemingly not be able to assert
sovereign immunity to avoid suit. See 38 U.S.C.A. § 4323.
The Texas Legislature also included local government
agencies in its code to give employees a remedy against
reemployment discrimination. See TEX. GOV’T CODE ANN.
§ 613(a)(1). For this Court to hold that although the
federal or local governments are open to suit for
discrimination, but not the state, is illogical. The federal
and state provisions were written in such a way to allow
for abrogation of sovereign immunity in federal and state
courts to protect our servicemembers upon return from
duty.
C. Conclusion
When taken together, the legislative report created
with the USERRA legislation, as well as the government
code chapters 437 and 613, show an intent of both the
federal and state legislatures to waive sovereign
immunity in Texas. Torres’s claim should be allowed to go
forward, or in the alternative, this Court should remand
to allow Torres an opportunity to replead the allegations
in his petition. I respectfully dissent.
GINA M. BENAVIDES,
Justice
Delivered and filed the 20th
day of November, 2018.

29a
APPENDIX B

THE SUPREME COURT OF TEXAS
Orders Pronounced June 5, 2020
ORDERS ON CAUSES
18-1134

W&T OFFSHORE, INC. v. WESLEY
FREDIEU; from Harris County; 14th
Court of Appeals District (14-16-00511-CV,
584 SW3d 200, 10-30-18)
The Court affirms the court of appeals’
judgment and remands the case to the trial
court.
Justice Blacklock delivered the opinion of
the Court, in which Chief Justice Hecht,
Justice Green, Justice Guzman, Justice
Devine, Justice Busby, and Justice Bland
joined.
Justice Boyd delivered a dissenting opinion.
(Justice Lehrmann did not participate)

30a
ORDERS ON CASES GRANTED
THE FOLLOWING PETITIONS FOR REVIEW ARE
GRANTED:
18-0781

ELECTRIC RELIABILITY COUNCIL
OF TEXAS,INC. v. PANDA POWER
GENERATION INFRASTRUCTURE
FUND, LLC D/B/A PANDA POWER
FUNDS, ET AL.; from Grayson County;
5th Court of Appeals District (05-17-00872CV, 552 SW3d 297, 04-16-18)
~ consolidated for oral argument with ~

18-0792

IN RE PANDA POWER
INFRASTRUCTURE FUND, LLC,
D/B/A PANDA POWER FUNDS, ET AL.;
from Grayson County; 5th Court of Appeals
District (05-17-00872-CV, 552 SW3d 297,
04-16-18)
[Note: The date and time for oral
argument are yet to be determined.]

18-0944

LEMUEL DAVID HOGAN v.
STEPHANIE MONTAGNE ZOANNI;
from Harris County; 1st Court of Appeals
District (01-16-00584-CV, 555 SW3d 321,
07-19-18)
[Note: The date and time for oral
argument are yet to be determined.]
(Justice Bland not participating)

31a
18-1181

EMERSON ELECTRIC CO. D/B/A
FUSITE AND EMERSON CLIMATE
TECHNOLOGIES, INC. v. CLARENCE
JOHNSON; from Tarrant County; 2nd
Court of Appeals District (02-16-00173-CV,
___ SW3d ___, 10-18-18)
[Note: The date and time for oral
argument are yet to be determined.]

18-1187

ENDEAVOR ENERGY RESOURCES,
L.P. v. ENERGEN RESOURCES
CORPORATION, ET AL.; from Howard
County; 11th Court of Appeals District (1117-00028-CV, 563 SW3d 449, 10-25-18)
[Note: The date and time for oral
argument are yet to be determined.]

19-0280

LOUIS HINOJOS v. STATE FARM
LLOYDS AND RAUL PULIDO; from El
Paso County; 8th Court of Appeals District
(08-16-00121-CV, 569 SW3d 304, 01-18-19)
[Note: The date and time for oral
argument are yet to be determined.]

19-0400

SAN JACINTO RIVER AUTHORITY v.
VICENTE MEDINA, ET AL., MICHAEL
A. BURNEY, ET AL., AND CHARLES J.
ARGENTO, ET AL.; from Harris County;

32a
1st Court of Appeals District (01-18-00407CV, 570 SW3d 820, 12-04-18)
[Note: The date and time for oral
argument are yet to be determined.]
19-0561

IN RE THE COMMITMENT OF
JEFFERY LEE STODDARD; from
Tarrant County; 2nd Court of Appeals
District (02-17-00364-CV, ___ SW3d ___,
05-30-19)
[Note: The date and time for oral
argument are yet to be determined.]

ORDERS ON PETITIONS FOR REVIEW
THE FOLLOWING PETITIONS FOR REVIEW ARE
DENIED:
19-0025

CITY OF AUSTIN, TEXAS AND
SPENCER CRONK, CITY MANAGER
OF THE CITY OF AUSTIN v. TEXAS
ASSOCIATION OF BUSINESS;
NATIONAL FEDERATION OF
INDEPENDENT BUSINESS,
AMERICAN STAFFING
ASSOCIATION; LEADINGEDGE
PERSONNEL, LTD.; STAFF FORCE,
INC., HT STAFFING LTD. D/B/A THE
HT GROUP; THE BURNETT
COMPANIES CONSOLIDATED, INC.
D/B/A BURNETT SPECIALISTS;
SOCIETY FOR HUMAN RESOURCE
MANAGEMENT; TEXAS STATE

33a
COUNCIL OF THE SOCIETY FOR
HUMAN RESOURCE MANAGEMENT;
AUSTIN HUMAN RESOURCE
MANAGEMENT ASSOCIATION;
STRICKLAND SCHOOL, LLC; AND
THE STATE OF TEXAS; from Travis
County; 3rd Court of Appeals District (0318-00445-CV, 565 SW3d 425, 11-16-18)
19-0107

LEROY TORRES v. TEXAS
DEPARTMENT OF PUBLIC SAFETY;
from Nueces County; 13th Court of Appeals
District (13-17-00659-CV, 583 SW3d 221,
11-20-18)

34a
19-0186

BTX SCHOOLS, INC. AND BASIS
SCHOOLS, INC. v. KONARK LIMITED
PARTNERSHIP; from Bexar County; 4th
Court of Appeals District (04-17-00558-CV,
580 SW3d 194, 11-07-18)

19-0225

COLUMBIA VALLEY HEALTH CARE
SYSTEM, L.P. D/B/A VALLEY
REGIONAL MEDICAL CENTER v.
MARIA ZAMARRIPA, AS GUARDIAN
OF THE ESTATES OF R.F.R. AND
R.J.R., MINORS; from Cameron County;
13th Court of Appeals District (13-1800231-CV, ___ SW3d ___, 02-28-19)

19-0538

CHESAPEAKE EXPLORATION, LLC,
ET AL. v. STANTON P. BELL, ET AL.;
from Bexar County; 4th Court of Appeals
District (04-18-00129-CV, ___ SW3d ___,
03-13-19)
(Justice Bland not participating)

19-0649

BBB INDUSTRIES, LLC v. CARDONE
INDUSTRIES, INC.; from Tarrant
County; 2nd Court of Appeals District (0218-00025-CV, ___ SW3d ___, 05-09-19)

19-0713

JEFFREY ERDNER, D.O. AND THE
EMERGENCY CENTER AT WEST 7TH,
LLC v. HIGHLAND PARK
EMERGENCY CENTER, LLC; from
Dallas County; 5th Court of Appeals
District (05-18-00654-CV, 580 SW3d 269,
05-22-19)

35a
19-0759

GRACIE NGUYEN; PATRICK
SANCHEZ; TAMARA AND DERRICK
O’NEAL, INDIVIDUALLY AND AS
REPRESENTATIVES OF THE ESTATE
OF DE’ANDRE TATUM, DECEASED;
ERICA D. HALL; CURTISHA DAVIS;
ARTHUR ZAMARRIPA, AS NEXT
FRIEND OF A.Z.; AND WILLIAM
JOSMA v. SXSW HOLDINGS, INC.;
SXSW LLC; PATRICK LOWE;
TRANSPORTATION DESIGN
CONSULTANTS; AND CITY OF
AUSTIN; from Travis County; 14th Court
of Appeals District (14-17-00575-CV, 580
SW3d 774, 07-18-19)
(Justice Busby not participating)

19-0766

DALLAS WORLD AQUARIUM CORP. v.
GLENN HEGAR, COMPTROLLER OF
PUBLIC ACCOUNTS OF THE STATE
OF TEXAS, AND KEN PAXTON,
ATTORNEY GENERAL OF THE
STATE OF TEXAS; from Travis County;
3rd Court of Appeals District (03-18- 00209CV, ___ SW3d ___, 06-19-19)

19-0955

ANCOR HOLDINGS, LP, TIMOTHY
MCKIBBEN, JOSEPH RANDALL
KEENE, AND ANCOR PARTNERS,
INC. v. PETERSON, GOLDMAN &
VILLANI, INC.; from Tarrant County;
2nd Court of Appeals District (02-18-00102CV, 584 SW3d 556, 07-18-19)

36a
19-0974

CALENA MORRIS, R.N., MICHEAUX
THOMAS, R.N. AND WENDY
CALVERT, R.N. v. BRENDA PONCE
AND RICCO GONZALEZ, AS
NATURAL PARENTS, NEXT FRIENDS
AND LEGAL GUARDIANS OF E.G., A
MINOR; from Harris County; 14th Court
of Appeals District (14-17-00997-CV, 584
SW3d 922, 09-24-19)
(Justice Guzman not participating)

19-0998

READYONE INDUSTRIES, INC. v.
MARIA G. GUILLEN-CHAVEZ; from El
Paso County; 8th Court of Appeals District
(08-17-00046-CV, 588 SW3d 281, 06-21-19)

19-1006

MADISON PLAZA, LP v. WALLACE
CONSTRUCTION & DEVELOPMENT
COMPANY; from Jefferson County; 9th
Court of Appeals District (09-18-00364-CV,
___ SW3d ___, 05-30-19)

19-1038

THE FAN EXPO, LLC v. NATIONAL
FOOTBALL LEAGUE; from Dallas
County; 5th Court of Appeals District (0517-01304-CV, ___ SW3d ___, 05-22-19)

19-1044

GIA THORNTON, INDIVIDUALLY, AS
THE REPRESENTATIVE FOR ALL
WRONGFUL DEATH
BENEFICIARIES, AND AS AN HEIR
AT LAW AND REPRESENTATIVE OF

37a
THE ESTATE OF MCQUESTER J.
SOLOMON, DECEASED v. COLUMBIA
MEDICAL CENTER OF PLANO
SUBSIDIARY, L.P. D/B/A MEDICAL
CITY PLANO, FORMERLY KNOWN AS
MEDICAL CENTER OF PLANO, AND
JANE LEE, R.N.; from Collin County; 5th
Court of Appeals District (05-18-01010-CV,
___ SW3d ___, 09-12-19)
19-1094

IN THE MATTER OF D.K., A CHILD;
from Denton County; 2nd Court of Appeals
District (02-19-00119-CV, 589 SW3d 861,
10-31-19)

19-1127

MATT MALOUF, ET AL. v.
STERQUELL PSF SETTLEMENT, L.C.;
from Dallas County; 5th Court of Appeals
District (05-17-01343-CV, ___SW3d ___, 1107-19)

20-0064

T. MARK ANDERSON AND
CHRISTINE ANDERSON, AS COEXECUTORS OF THE ESTATE OF
TED ANDERSON v. RICHARD T.
ARCHER, ET AL.; from Travis County;
3rd Court of Appeals District (03-19-00003CV, ___ SW3d ___, 11-21-19)
2 petitions

20-0069

CHRISTOPHER MITCHELL AND
TIFFANY MITCHELL v. CALVIN
PRESTON; from Harris County; 1st Court
of Appeals District (05-18-01383-CV, ___
SW3d ___, 01-28-20)

38a
20-0192

PMC CHASE, LLP AND STEVE
TURNBOW v. BRANCH STRUCTURAL
SOLUTIONS, LLC; from Dallas County;
5th Court of Appeals District (05-18-01383CV, ___ SW3d ___, 01-28-20)

20-0350

EWING CONSTRUCTION CO., INC. v.
BENAVIDES INDEPENDENT
SCHOOL DISTRICT; from Duval County;
4th Court of Appeals District (04-19-00797CV, ___ SW3d ___, 03-18-20)

20-0352

IN THE INTEREST OF H.L.M., A
CHILD; from Travis County; 3rd Court of
Appeals District (03-19-00490-CV, ___
SW3d ___, 12-11-19)

20-0395

IN THE INTEREST OF D.C., J.C. III,
J.C., AND J.C., CHILDREN; from Dallas
County; 5th Court of Appeals District (0519-01217-CV, ___ SW3d ___, 03-04-20)

20-0409

IN THE INTEREST OF I.N.D., D.M.R.,
A.M.R., L.F.R., AND A.R.R.,
CHILDREN; from Bexar County; 4th
Court of Appeals District (04-20-00121-CV,
___ SW3d ___, 05-13-20)

20-0418

IN THE INTEREST OF Y.M.L., A
CHILD; from Bexar County; 4th Court
Appeals District (04-19-00168-CV, ___
SW3d ___, 04-08-20)

39a
THE FOLLOWING PETITIONS FOR REVIEW ARE
DISMISSED:
18-0028

MACINA, BOSE, COPELAND AND
ASSOCIATES D/B/A MBC
ENGINEERS, MCCORD ENGINEERING, INC. AND JORDAN & SKALA
ENGINEERS, INC. v. ERIKA YANEZ,
INDIVIDUALLY AND AS NEXT
FRIEND OF JOSE MANUEL LOPEZ,
E.L.Y., A MINOR, AND X.L.Y., A
MINOR; from Dallas County; 5th Court of
Appeals District (05-17-00180-CV, ___
SW3d ___, 10-26-17)
4 petitions
joint motion to lift abatement granted
abatement order issued February 19, 2020,
lifted
joint motion to dismiss appeal granted

40a
19-0917

IN THE INTEREST OF A.L.P., A
CHILD; Fort Bend County; 1st Court of
Appeals District (01-19-00144-CV, ___
SW3d ___, 08-22-19)
See TEX. R. APP. P. 53.7(a)

ORDERS ON MOTIONS FOR REHEARING
THE MOTION FOR REHEARING OF THE
FOLLOWING PETITION FOR REVIEW IS
GRANTED:
19-0238

CATHAY BANK v. LYDA SWINERTON
BUILDERS, INC.; from Harris County;
14th Court of Appeals District (14-1700030-CV, 566 SW3d 836, 12-18-18)
denial of petition for review on February
14, 2020, withdrawn
petition reinstated
(Justice Busby not participating)

THE MOTIONS FOR REHEARING OF THE
FOLLOWING PETITIONS FOR REVIEW ARE
DENIED:
18-0658

BELL HELICOPTER TEXTRON INC. v.
BRIAN BURNETT; from Tarrant County;
2nd Court of Appeals District (02-16-00489CV, 552 SW3d 901, 06-14-18)
(Justice Green not participating)

41a
19-0828

PE SERVICES, LLC, LANDRY
ARCHITECTS, AND
FABRISTRUCTURE, INC. v.
KERRVILLE FITNESS PROPERTY,
LLC, J. HOUSER CONSTRUCTION,
INC., AND JOSH HOUSER D/B/A
HOUSER CONSTRUCTION; from Dallas
County; 5th Court of Appeals District (0517-01317-CV, ___ SW3d ___, 08-21-19)

19-1063

CHARLIE WILSON, INDIVIDUALLY
AND AS ADMINISTRATOR OF THE
ESTATE OF DEBRA WILSON v.
DALLAS COUNTY HOSPITAL
DISTRICT D/B/A PARKLAND HEALTH
& HOSPITAL SYSTEM; from Dallas
County; 1st Court of Appeals District (0518-01049-CV, ___ SW3d ___, 12-03-19)

19-1114

BOW GROVE v. MARION GINE
FRANKE AND BRENDA KAY LYNCH;
from Montgomery County; 9th Court of
Appeals District (09-18-00119-CV, ___
SW3d ___, 10-17-19)
MISCELLANEOUS

THE FOLLOWING PETITIONS FOR WRIT OF
MANDAMUS ARE DENIED:
19-0636

IN RE RIG QA INTERNATIONAL,
INC.; from Harris County; 14th Court of
Appeals District (14-19-00174-CV, ___
SW3d ___, 05-16-19)

42a
19-1091

IN RE GEORGE WEIMER, BOB
ROBERTS, JR., JAMES HUGHES,
DUSTIN NAVARRO, JOSE PEREZ,
MORRIS SALZMAN, GORDAN
HITZFELDER, BRIAN SULLIVAN,
AND BONNIE TAPP; from Bandera
County; 4th Court of Appeals District (0419-00750-CV, ___ SW3d ___, 11-13-19)

43a
20-0042

IN RE BRIAN E. VODICKA AND
STEVEN B. AUBREY; from Dallas
County; 5th Court of Appeals District (0519-01067-CV, ___ SW3d ___, 01-10-20)
motion for orders denied
stay order issued January 30, 2020, lifted
stay order issued February 4, 2020, lifted

20-0429

IN RE LANCE GOODEN; from Travis
County; 14th Court of Appeals District (1420-00358-CV, ___ SW3d ___, 05-12-20)

[Note: The petition is denied. The Court’s stay order
issued in In re State of Texas, 20-0401, remains in
effect while that petition is pending.]

44a
APPENDIX C

THE SUPREME COURT OF TEXAS
Post Office Box 12248
Austin, Texas 78711
(512) 463-1312
August 30, 2019
Mr. Stephen Jeffrey Chapman
Chapman Law Firm
710 N. Mesquite St.
Corpus Christi, TX 78401-2312
* DELIVERED VIA E-MAIL *
Trevor Ezell
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, TX 78711
* DELIVERED VIA E-MAIL *
RE:

Case Number: 19-0107
Court of Appeals Number: 13-17-00659-CV
Trial Court Number: 2017-CCV-61016-1

Style: LEROY TORRES
v.
TEXAS DEPARTMENT OF PUBLIC SAFETY
Dear Counsel:
Pursuant to TEX. R. APP. P. 55.1, you are requested
to file briefs on the merits in the above-styled case. Please
refer to TEX. R. APP. P. 55 for the requirements of
petitioners’ and respondents’ briefs. The petition for
review remains under consideration by this Court. The

45a
briefing schedule is outlined below. See TEX. R. APP. P.
55.7.
Petitioner/s shall file their brief by September 30,
2019.
Respondent/s shall file their response brief by
October 21, 2019.
Petitioner/s shall file any reply brief by November 05,
2019.
Pursuant to TEX. R. APP. P. 9.2(c)(2) all documents
(except documents submitted under seal) must be e-filed
through eFileTexas.gov. You may file up to midnight on
the due date.
PLEASE NOTE: For cases filed after February 20,
2018, attorneys should verify that the entire record for the
case was automatically uploaded to the Court through the
attorney portal. The attorney portal can be accessed by
attorneys only through the Court’s website at
https://attorneyportal.txcourts.gov/. Contact the Clerk’s
Office at 512-463-1312 if any items are missing from the
record.
Sincerely,
Blake A. Hawthorne, Clerk
by Claudia Jenks, Chief
Deputy Clerk
cc:

Mr. Donald B. Verrilli Jr. (DELIVERED VIA
E-MAIL)
Ms. Zoe Bedell (DELIVERED VIA E-MAIL)

46a
Mr. Jeffrey M. Hirsch (DELIVERED VIA
E-MAIL)
Ms. Adele El-Khouri (DELIVERED VIA
E-MAIL)
Mr. Brian J. Lawler (DELIVERED VIA
E-MAIL)

47a
APPENDIX D

COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
December 19, 2018
Hon. Brian Lawler
PILOT LAW, P.C.
850 Beech Street, Ste. 713
San Diego, CA 92101
* DELIVERED VIA E-MAIL *
Hon. Kyle D. Hawkins
Office of the Texas Attorney General
PO Box 12548
Austin, TX 78711-2548
* DELIVERED VIA E-MAIL *
Hon. John C. Sullivan
Office of the Attorney General
PO Box 12548
Austin, TX 78711-2548
* DELIVERED VIA E-MAIL *
Re:

Cause No. 13-17-00659-CV
Tr.Ct.No. 2017-CCV-61016-1
Style: Texas Department of Public Safety v. Leroy
Torres

48a
Appellee’s motion for rehearing en banc in the above
cause was this day DENIED by this Court. Justices
Benavides and Hinojosa would grant.
Very Truly Yours,
Dorian E. Ramirez, Clerk

49a
APPENDIX E

CAUSE NO. 2017CCV-61016-1
LEROY TORRES
V.
TEXAS DEPARTMENT
OF PUBLIC SAFETY

§
§
§
§
§
§
§
§

IN THE COUNTY
COURT
AT LAW
NUMBER ONE
NUECES
COUNTY, TEXAS

ORDER DENYING PLEA TO THE JURISDICTION
On this date November 16, 2017 came on for hearing
Defendant’s Plea to the Jurisdiction. After considering
said Plea to the Jurisdiction, the Court is of the opinion
that the it should be DENIED.
IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED that Defendant’s Plea to the
Jurisdiction is hereby DENIED.
SIGNED THIS 21 day of

November , 2017.
/s/

JUDGE PRESIDING

50a
APPENDIX F
PROVISIONS OF U.S. CONSTITUTION AND U.S. CODE
U.S. Const. Art. I, § 8, Cl. 11

The Congress shall have Power . . . To declare War, grant
Letters of Marque and Reprisal, and make Rules concerning Captures on Land and Water;
U.S. Const. Art. I § 8, Cl. 12

The Congress shall have Power . . . To raise and support
Armies, but no Appropriation of Money to that Use shall
be for a longer Term than two Years;
U.S. Const. Art. I § 8, Cl. 13

The Congress shall have Power . . . To provide and maintain a Navy;
U.S. Const. Art. I § 8, Cl. 14

The Congress shall have Power . . . To make Rules for the
Government and Regulation of the land and naval Forces;
U.S. Const. Art. I § 8, Cl. 15

The Congress shall have Power . . . To provide for calling
forth the Militia to execute the Laws of the Union, suppress Insurrections and repel Invasions;
U.S. Const. Art. I § 8, Cl. 16

The Congress shall have Power . . . To provide for organizing, arming, and disciplining, the Militia, and for governing such Part of them as may be employed in the Service
of the United States, reserving to the States respectively,
the Appointment of the Officers, and the Authority of
training the Militia according to the discipline prescribed
by Congress;

51a
U.S. Const. Art. I § 10, Cl. 3

No State shall, without the Consent of Congress, lay any
Duty of Tonnage, keep Troops, or Ships of War in time of
Peace, enter into any Agreement or Compact with another State, or with a foreign Power, or engage in War,
unless actually invaded, or in such imminent Danger as
will not admit of delay.
38 U.S.C. § 4311. Discrimination against persons who serve
in the uniformed services and acts of reprisal prohibited

(a) A person who is a member of, applies to be a member
of, performs, has performed, applies to perform, or has an
obligation to perform service in a uniformed service shall
not be denied initial employment, reemployment, retention in employment, promotion, or any benefit of employment by an employer on the basis of that membership, application for membership, performance of service, application for service, or obligation.
(b) An employer may not discriminate in employment
against or take any adverse employment action against
any person because such person (1) has taken an action to
enforce a protection afforded any person under this chapter, (2) has testified or otherwise made a statement in or
in connection with any proceeding under this chapter, (3)
has assisted or otherwise participated in an investigation
under this chapter, or (4) has exercised a right provided
for in this chapter. The prohibition in this subsection shall
apply with respect to a person regardless of whether that
person has performed service in the uniformed services.
(c) An employer shall be considered to have engaged in
actions prohibited—

52a
(1) under subsection (a), if the person’s membership, application for membership, service, application for service, or obligation for service in the uniformed services
is a motivating factor in the employer’s action, unless
the employer can prove that the action would have been
taken in the absence of such membership, application
for membership, service, application for service, or obligation for service; or
(2) under subsection (b), if the person’s (A) action to enforce a protection afforded any person under this chapter, (B) testimony or making of a statement in or in connection with any proceeding under this chapter, (C) assistance or other participation in an investigation under
this chapter, or (D) exercise of a right provided for in
this chapter, is a motivating factor in the employer’s action, unless the employer can prove that the action
would have been taken in the absence of such person’s
enforcement action, testimony, statement, assistance,
participation, or exercise of a right.
(d) The prohibitions in subsections (a) and (b) shall apply
to any position of employment, including a position that is
described in section 4312(d)(1)(C) of this title.
38 U.S.C. § 4312. Reemployment rights of persons who serve
in the uniformed services

(a) Subject to subsections (b), (c), and (d) and to section
4304, any person whose absence from a position of employment is necessitated by reason of service in the uniformed services shall be entitled to the reemployment
rights and benefits and other employment benefits of this
chapter if—
(1) the person (or an appropriate officer of the uniformed service in which such service is performed) has
given advance written or verbal notice of such service to
such person's employer;

53a
(2) the cumulative length of the absence and of all previous absences from a position of employment with that
employer by reason of service in the uniformed services
does not exceed five years; and
(3) except as provided in subsection (f), the person reports to, or submits an application for reemployment to,
such employer in accordance with the provisions of subsection (e).
(b) No notice is required under subsection (a)(1) if the giving of such notice is precluded by military necessity or,
under all of the relevant circumstances, the giving of such
notice is otherwise impossible or unreasonable. A determination of military necessity for the purposes of this subsection shall be made pursuant to regulations prescribed
by the Secretary of Defense and shall not be subject to
judicial review.
(c) Subsection (a) shall apply to a person who is absent
from a position of employment by reason of service in the
uniformed services if such person's cumulative period of
service in the uniformed services, with respect to the employer relationship for which a person seeks reemployment, does not exceed five years, except that any such period of service shall not include any service—
(1) that is required, beyond five years, to complete an
initial period of obligated service;
(2) during which such person was unable to obtain orders releasing such person from a period of service in
the uniformed services before the expiration of such
five-year period and such inability was through no fault
of such person;

54a
(3) performed as required pursuant to section 10147 of
title 10, under section 502(a) or 503 of title 32, or to fulfill
additional training requirements determined and certified in writing by the Secretary concerned, to be necessary for professional development, or for completion of
skill training or retraining; or
(4) performed by a member of a uniformed service who
is—
(A) ordered to or retained on active duty under section
688, 12301(a), 12301(g), 12302, 12304, 12304a, 12304b,
or 12305 of title 10 or under section 331, 332, 359, 360,
367, or 712 of title 141;
(B) ordered to or retained on active duty (other than
for training) under any provision of law because of a
war or national emergency declared by the President
or the Congress, as determined by the Secretary concerned;
(C) ordered to active duty (other than for training) in
support, as determined by the Secretary concerned, of
an operational mission for which personnel have been
ordered to active duty under section 12304 of title 10;
(D) ordered to active duty in support, as determined
by the Secretary concerned, of a critical mission or requirement of the uniformed services;
(E) called into Federal service as a member of the National Guard under chapter 15 of title 10 or under section 12406 of title 10; or
(F) ordered to full-time National Guard duty (other
than for training) under section 502(f)(2)(A) of title 32
when authorized by the President or the Secretary of
Defense for the purpose of responding to a national
emergency declared by the President and supported
by Federal funds, as determined by the Secretary concerned.

55a
(d)(1) An employer is not required to reemploy a person
under this chapter if—
(A) the employer's circumstances have so changed as
to make such reemployment impossible or unreasonable;
(B) in the case of a person entitled to reemployment
under subsection (a)(3), (a)(4), or (b)(2)(B) of section
4313, such employment would impose an undue hardship on the employer; or
(C) the employment from which the person leaves to
serve in the uniformed services is for a brief, nonrecurrent period and there is no reasonable expectation
that such employment will continue indefinitely or for
a significant period.
(2) In any proceeding involving an issue of whether—
(A) any reemployment referred to in paragraph (1) is
impossible or unreasonable because of a change in an
employer's circumstances,
(B) any accommodation, training, or effort referred to
in subsection (a)(3), (a)(4), or (b)(2)(B) of section 4313
would impose an undue hardship on the employer, or
(C) the employment referred to in paragraph (1)(C) is
for a brief, nonrecurrent period and there is no reasonable expectation that such employment will continue indefinitely or for a significant period,
the employer shall have the burden of proving the impossibility or unreasonableness, undue hardship, or the
brief or nonrecurrent nature of the employment without
a reasonable expectation of continuing indefinitely or for
a significant period.

56a
(e)(1) Subject to paragraph (2), a person referred to in
subsection (a) shall, upon the completion of a period of service in the uniformed services, notify the employer referred to in such subsection of the person's intent to return to a position of employment with such employer as
follows:
(A) In the case of a person whose period of service in
the uniformed services was less than 31 days, by reporting to the employer—
(i) not later than the beginning of the first full regularly scheduled work period on the first full calendar
day following the completion of the period of service
and the expiration of eight hours after a period allowing for the safe transportation of the person from
the place of that service to the person's residence; or
(ii) as soon as possible after the expiration of the
eight-hour period referred to in clause (i), if reporting within the period referred to in such clause is impossible or unreasonable through no fault of the person.
(B) In the case of a person who is absent from a position of employment for a period of any length for the
purposes of an examination to determine the person's
fitness to perform service in the uniformed services,
by reporting in the manner and time referred to in
subparagraph (A).

57a
(C) In the case of a person whose period of service in
the uniformed services was for more than 30 days but
less than 181 days, by submitting an application for
reemployment with the employer not later than 14
days after the completion of the period of service or if
submitting such application within such period is impossible or unreasonable through no fault of the person, the next first full calendar day when submission
of such application becomes possible.
(D) In the case of a person whose period of service in
the uniformed services was for more than 180 days, by
submitting an application for reemployment with the
employer not later than 90 days after the completion
of the period of service.
(2)(A) A person who is hospitalized for, or convalescing
from, an illness or injury incurred in, or aggravated during, the performance of service in the uniformed services shall, at the end of the period that is necessary for
the person to recover from such illness or injury, report
to the person's employer (in the case of a person described in subparagraph (A) or (B) of paragraph (1)) or
submit an application for reemployment with such employer (in the case of a person described in subparagraph (C) or (D) of such paragraph). Except as provided
in subparagraph (B), such period of recovery may not
exceed two years.
(B) Such two-year period shall be extended by the
minimum time required to accommodate the circumstances beyond such person's control which make reporting within the period specified in subparagraph
(A) impossible or unreasonable.

58a
(3) A person who fails to report or apply for employment
or reemployment within the appropriate period specified in this subsection shall not automatically forfeit
such person's entitlement to the rights and benefits referred to in subsection (a) but shall be subject to the conduct rules, established policy, and general practices of
the employer pertaining to explanations and discipline
with respect to absence from scheduled work.
(f)(1) A person who submits an application for reemployment in accordance with subparagraph (C) or (D) of subsection (e)(1) or subsection (e)(2) shall provide to the person's employer (upon the request of such employer) documentation to establish that—
(A) the person's application is timely;
(B) the person has not exceeded the service limitations
set forth in subsection (a)(2) (except as permitted under subsection (c)); and
(C) the person's entitlement to the benefits under this
chapter has not been terminated pursuant to section
4304.
(2) Documentation of any matter referred to in paragraph (1) that satisfies regulations prescribed by the
Secretary shall satisfy the documentation requirements
in such paragraph.

59a
(3)(A) Except as provided in subparagraph (B), the failure of a person to provide documentation that satisfies
regulations prescribed pursuant to paragraph (2) shall
not be a basis for denying reemployment in accordance
with the provisions of this chapter if the failure occurs
because such documentation does not exist or is not
readily available at the time of the request of the employer. If, after such reemployment, documentation becomes available that establishes that such person does
not meet one or more of the requirements referred to in
subparagraphs (A), (B), and (C) of paragraph (1), the
employer of such person may terminate the employment of the person and the provision of any rights or
benefits afforded the person under this chapter.
(B) An employer who reemploys a person absent from
a position of employment for more than 90 days may
require that the person provide the employer with the
documentation referred to in subparagraph (A) before
beginning to treat the person as not having incurred a
break in service for pension purposes under section
4318(a)(2)(A).
(4) An employer may not delay or attempt to defeat a
reemployment obligation by demanding documentation
that does not then exist or is not then readily available.
(g) The right of a person to reemployment under this section shall not entitle such person to retention, preference,
or displacement rights over any person with a superior
claim under the provisions of title 5, United States Code,
relating to veterans and other preference eligibles.

60a
(h) In any determination of a person's entitlement to protection under this chapter, the timing, frequency, and duration of the person's training or service, or the nature of
such training or service (including voluntary service) in
the uniformed services, shall not be a basis for denying
protection of this chapter if the service does not exceed
the limitations set forth in subsection (c) and the notice
requirements established in subsection (a)(1) and the notification requirements established in subsection (e) are
met.
38 U.S.C. § 4313. Reemployment positions

(a) Subject to subsection (b) (in the case of any employee)
and sections 4314 and 4315 (in the case of an employee of
the Federal Government), a person entitled to reemployment under section 4312, upon completion of a period of
service in the uniformed services, shall be promptly
reemployed in a position of employment in accordance
with the following order of priority:
(1) Except as provided in paragraphs (3) and (4), in the
case of a person whose period of service in the uniformed services was for less than 91 days—
(A) in the position of employment in which the person
would have been employed if the continuous employment of such person with the employer had not been
interrupted by such service, the duties of which the
person is qualified to perform; or
(B) in the position of employment in which the person
was employed on the date of the commencement of the
service in the uniformed services, only if the person is
not qualified to perform the duties of the position referred to in subparagraph (A) after reasonable efforts
by the employer to qualify the person.

61a
(2) Except as provided in paragraphs (3) and (4), in the
case of a person whose period of service in the uniformed services was for more than 90 days—
(A) in the position of employment in which the person
would have been employed if the continuous employment of such person with the employer had not been
interrupted by such service, or a position of like seniority, status and pay, the duties of which the person is
qualified to perform; or
(B) in the position of employment in which the person
was employed on the date of the commencement of the
service in the uniformed services, or a position of like
seniority, status and pay, the duties of which the person is qualified to perform, only if the person is not
qualified to perform the duties of a position referred
to in subparagraph (A) after reasonable efforts by the
employer to qualify the person.
(3) In the case of a person who has a disability incurred
in, or aggravated during, such service, and who (after
reasonable efforts by the employer to accommodate the
disability) is not qualified due to such disability to be employed in the position of employment in which the person would have been employed if the continuous employment of such person with the employer had not been interrupted by such service—
(A) in any other position which is equivalent in seniority, status, and pay, the duties of which the person is
qualified to perform or would become qualified to perform with reasonable efforts by the employer; or
(B) if not employed under subparagraph (A), in a position which is the nearest approximation to a position
referred to in subparagraph (A) in terms of seniority,
status, and pay consistent with circumstances of such
person's case.

62a
(4) In the case of a person who (A) is not qualified to be
employed in (i) the position of employment in which the
person would have been employed if the continuous employment of such person with the employer had not been
interrupted by such service, or (ii) in the position of employment in which such person was employed on the
date of the commencement of the service in the uniformed services for any reason (other than disability incurred in, or aggravated during, service in the uniformed services), and (B) cannot become qualified with
reasonable efforts by the employer, in any other position
which is the nearest approximation to a position referred to first in clause (A)(i) and then in clause (A)(ii)
which such person is qualified to perform, with full seniority.
(b)(1) If two or more persons are entitled to reemployment under section 4312 in the same position of employment and more than one of them has reported for such
reemployment, the person who left the position first shall
have the prior right to reemployment in that position.
(2) Any person entitled to reemployment under section
4312 who is not reemployed in a position of employment
by reason of paragraph (1) shall be entitled to be
reemployed as follows:
(A) Except as provided in subparagraph (B), in any
other position of employment referred to in subsection
(a)(1) or (a)(2), as the case may be (in the order of priority set out in the applicable subsection), that provides a similar status and pay to a position of employment referred to in paragraph (1) of this subsection,
consistent with the circumstances of such person's
case, with full seniority.

63a
(B) In the case of a person who has a disability incurred in, or aggravated during, a period of service in
the uniformed services that requires reasonable efforts by the employer for the person to be able to perform the duties of the position of employment, in any
other position referred to in subsection (a)(3) (in the
order of priority set out in that subsection) that provides a similar status and pay to a position referred to
in paragraph (1) of this subsection, consistent with circumstances of such person's case, with full seniority.
38 U.S.C. § 4314. Reemployment by the Federal Government

(a) Except as provided in subsections (b), (c), and (d), if a
person is entitled to reemployment by the Federal Government under section 4312, such person shall be
reemployed in a position of employment as described in
section 4313.
(b)(1) If the Director of the Office of Personnel Management makes a determination described in paragraph (2)
with respect to a person who was employed by a Federal
executive agency at the time the person entered the service from which the person seeks reemployment under
this section, the Director shall—
(A) identify a position of like seniority, status, and pay
at another Federal executive agency that satisfies the
requirements of section 4313 and for which the person
is qualified; and
(B) ensure that the person is offered such position.
(2) The Director shall carry out the duties referred to in
subparagraphs (A) and (B) of paragraph (1) if the Director determines that—
(A) the Federal executive agency that employed the
person referred to in such paragraph no longer exists
and the functions of such agency have not been transferred to another Federal executive agency; or

64a
(B) it is impossible or unreasonable for the agency to
reemploy the person.
(c) If the employer of a person described in subsection (a)
was, at the time such person entered the service from
which such person seeks reemployment under this section, a part of the judicial branch or the legislative branch
of the Federal Government, and such employer determines that it is impossible or unreasonable for such employer to reemploy such person, such person shall, upon
application to the Director of the Office of Personnel Management, be ensured an offer of employment in an alternative position in a Federal executive agency on the basis
described in subsection (b).
(d) If the adjutant general of a State determines that it is
impossible or unreasonable to reemploy a person who was
a National Guard technician employed under section 709
of title 32, such person shall, upon application to the Director of the Office of Personnel Management, be ensured
an offer of employment in an alternative position in a Federal executive agency on the basis described in subsection
(b).

65a
38 U.S.C. § 4316. Rights, benefits, and obligations of persons
absent from employment for service in a uniformed service

(a) A person who is reemployed under this chapter is entitled to the seniority and other rights and benefits determined by seniority that the person had on the date of the
commencement of service in the uniformed services plus
the additional seniority and rights and benefits that such
person would have attained if the person had remained
continuously employed.
(b)(1) Subject to paragraphs (2) through (6), a person who
is absent from a position of employment by reason of service in the uniformed services shall be-(A) deemed to be on furlough or leave of absence while
performing such service; and
(B) entitled to such other rights and benefits not determined by seniority as are generally provided by the
employer of the person to employees having similar
seniority, status, and pay who are on furlough or leave
of absence under a contract, agreement, policy, practice, or plan in effect at the commencement of such service or established while such person performs such
service.
(2)(A) Subject to subparagraph (B), a person who-(i) is absent from a position of employment by reason
of service in the uniformed services, and
(ii) knowingly provides written notice of intent not to
return to a position of employment after service in
the uniformed service,
is not entitled to rights and benefits under paragraph
(1)(B).

66a
(B) For the purposes of subparagraph (A), the employer shall have the burden of proving that a person
knowingly provided clear written notice of intent not
to return to a position of employment after service in
the uniformed service and, in doing so, was aware of
the specific rights and benefits to be lost under subparagraph (A).
(3) A person deemed to be on furlough or leave of absence under this subsection while serving in the uniformed services shall not be entitled under this subsection to any benefits to which the person would not otherwise be entitled if the person had remained continuously employed.
(4) Such person may be required to pay the employee
cost, if any, of any funded benefit continued pursuant to
paragraph (1) to the extent other employees on furlough
or leave of absence are so required.
(5) The entitlement of a person to coverage under a
health plan is provided for under section 4317.
(6) The entitlement of a person to a right or benefit under an employee pension benefit plan is provided for under section 4318.
(c) A person who is reemployed by an employer under this
chapter shall not be discharged from such employment,
except for cause-(1) within one year after the date of such reemployment,
if the person's period of service before the reemployment was more than 180 days; or
(2) within 180 days after the date of such reemployment,
if the person's period of service before the reemployment was more than 30 days but less than 181 days.

67a
(d) Any person whose employment with an employer is interrupted by a period of service in the uniformed services
shall be permitted, upon request of that person, to use
during such period of service any vacation, annual, or similar leave with pay accrued by the person before the commencement of such service. No employer may require any
such person to use vacation, annual, or similar leave during such period of service.
(e)(1) An employer shall grant an employee who is a member of a reserve component an authorized leave of absence
from a position of employment to allow that employee to
perform funeral honors duty as authorized by section
12503 of title 10 or section 115 of title 32.
(2) For purposes of section 4312(e)(1) of this title, an employee who takes an authorized leave of absence under
paragraph (1) is deemed to have notified the employer
of the employee's intent to return to such position of employment.

68a
38 U.S.C. § 4323. Enforcement of rights with respect to a
State or private employer

(a) Action for relief.—(1) A person who receives from the
Secretary a notification pursuant to section 4322(e) of this
title of an unsuccessful effort to resolve a complaint relating to a State (as an employer) or a private employer may
request that the Secretary refer the complaint to the Attorney General. Not later than 60 days after the Secretary
receives such a request with respect to a complaint, the
Secretary shall refer the complaint to the Attorney General. If the Attorney General is reasonably satisfied that
the person on whose behalf the complaint is referred is
entitled to the rights or benefits sought, the Attorney
General may appear on behalf of, and act as attorney for,
the person on whose behalf the complaint is submitted
and commence an action for relief under this chapter for
such person. In the case of such an action against a State
(as an employer), the action shall be brought in the name
of the United States as the plaintiff in the action.
(2) Not later than 60 days after the date the Attorney
General receives a referral under paragraph (1), the Attorney General shall—
(A) make a decision whether to appear on behalf of,
and act as attorney for, the person on whose behalf the
complaint is submitted; and
(B) notify such person in writing of such decision.
(3) A person may commence an action for relief with respect to a complaint against a State (as an employer) or
a private employer if the person—
(A) has chosen not to apply to the Secretary for assistance under section 4322(a) of this title;
(B) has chosen not to request that the Secretary refer
the complaint to the Attorney General under paragraph (1); or

69a
(C) has been refused representation by the Attorney
General with respect to the complaint under such paragraph.
(b) Jurisdiction.—(1) In the case of an action against a
State (as an employer) or a private employer commenced
by the United States, the district courts of the United
States shall have jurisdiction over the action.
(2) In the case of an action against a State (as an employer) by a person, the action may be brought in a State
court of competent jurisdiction in accordance with the
laws of the State.
(3) In the case of an action against a private employer
by a person, the district courts of the United States shall
have jurisdiction of the action.
(c) Venue.—(1) In the case of an action by the United
States against a State (as an employer), the action may
proceed in the United States district court for any district
in which the State exercises any authority or carries out
any function.
(2) In the case of an action against a private employer,
the action may proceed in the United States district
court for any district in which the private employer of
the person maintains a place of business.
(d) Remedies.—
(1) In any action under this section, the court may award
relief as follows:
(A) The court may require the employer to comply
with the provisions of this chapter.
(B) The court may require the employer to compensate the person for any loss of wages or benefits suffered by reason of such employer's failure to comply
with the provisions of this chapter.

70a
(C) The court may require the employer to pay the
person an amount equal to the amount referred to in
subparagraph (B) as liquidated damages, if the court
determines that the employer's failure to comply with
the provisions of this chapter was willful.
(2)(A) Any compensation awarded under subparagraph
(B) or (C) of paragraph (1) shall be in addition to, and
shall not diminish, any of the other rights and benefits
provided for under this chapter.
(B) In the case of an action commenced in the name of
the United States for which the relief includes compensation awarded under subparagraph (B) or (C) of
paragraph (1), such compensation shall be held in a
special deposit account and shall be paid, on order of
the Attorney General, directly to the person. If the
compensation is not paid to the person because of inability to do so within a period of 3 years, the compensation shall be covered into the Treasury of the United
States as miscellaneous receipts.
(3) A State shall be subject to the same remedies, including prejudgment interest, as may be imposed upon any
private employer under this section.
(e) Equity powers.—The court shall use, in any case in
which the court determines it is appropriate, its full equity
powers, including temporary or permanent injunctions,
temporary restraining orders, and contempt orders, to
vindicate fully the rights or benefits of persons under this
chapter.
(f) Standing.—An action under this chapter may be initiated only by a person claiming rights or benefits under
this chapter under subsection (a) or by the United States
under subsection (a)(1).

71a
(g) Respondent.—In any action under this chapter, only
an employer or a potential employer, as the case may be,
shall be a necessary party respondent.
(h) Fees, court costs.—
(1) No fees or court costs may be charged or taxed
against any person claiming rights under this chapter.
(2) In any action or proceeding to enforce a provision of
this chapter by a person under subsection (a)(2) who obtained private counsel for such action or proceeding, the
court may award any such person who prevails in such
action or proceeding reasonable attorney fees, expert
witness fees, and other litigation expenses.
(i) Definition.—In this section, the term “private employer” includes a political subdivision of a State.

72a
APPENDIX G

CAUSE NO. 2017CCV-61016-1
LEROY TORRES
V.
TEXAS DEPARTMENT
OF PUBLIC SAFETY

§
§
§
§
§
§
§
§

IN THE COUNTY
COURT
AT LAW
NUMBER ONE
NUECES
COUNTY, TEXAS

PLAINTIFF’S FIRST AMENDED ORIGINAL
PETITION
COMES NOW Plaintiff complaining of Defendant
and for causes of action pursuant to the Uniformed
Services Employment and Reemployment Rights Act of
1994 (“USERRA”), 38 U.S.C. 4301, et seq., would
respectfully show the Court and jury as follows:
Discovery Control Plan
1. This lawsuit seeks damages over $1,000,000.
Therefore, discovery is intended to be conducted under
Level Three pursuant to Rule 190 of the Texas Rules of
Civil Procedure.
Parties
2. Plaintiff is an individual residing in Nueces County,
Texas. Defendant employed Plaintiff in Corpus Christi,
Nueces County, Texas, and at all relevant times Plaintiff
was an “employee” and member of the uniformed services
for purposes of 38 U.S.C. §4303(3), (9), and (16).
3. Defendant, Texas Department of Public Safety
(“DPS”) is political subdivision of the State of Texas and

73a
existing and having a place of business in Corpus Christi,
Nueces County, Texas. At all relevant times, DPS was and
is an employer for purposes of 38 U.S.C. § 4303(4)(A) and
§ 4323(b)(2). DPS can be served with process via Steve
McCraw, Director of the Texas Department of Public
Safety at his office located at 5805 North Lamar Blvd.,
Austin, Texas 78752 or wherever they may be found in
Texas.
Jurisdiction and Venue
4. This Court has jurisdiction of the parties and of the
subject matter of this suit as conferred by 38 U.S.C.
§4323(b)(2) (further codified by 20 C.F.R. §1002.39). “In
the case of action against a State (as an employer) by a
person, the action may be brought in a State court of
competent jurisdiction in accordance with the laws of the
State.” 38 U.S.C. §4323(b)(2).
5. Pursuant to 38 U.S.C. § 4323(h), “No fees or court
costs may be charged or taxed against any person
claiming rights under [USERRA].”
6. Venue is proper in Nueces County, Texas pursuant
to 38 U.S.C. §4323(b)(2) and Section 15.002(a)(1), Texas
Civil Practice and Remedies Code, since all events
forming the basis of this suit occurred in this county.
Facts
7. Plaintiff enlisted in the United States Army
Reserve (“USAR”) on December 9, 1989.
8. Plaintiff was hired by DPS in October 1998 as a
Trooper/Trainee. Plaintiff notified Defendant of his
military service obligations with the USAR when he was
hired.
9. On October 12, 2004, Plaintiff was commissioned as
a Second Lieutenant in the USAR.

74a
10. On or about November 5, 2007, Plaintiff was
mobilized to active duty with his USAR unit and deployed
to Iraq.
11. Prior to departing for military leave, Plaintiff
timely notified Defendant of his upcoming military service
obligations.
12. Plaintiff was released from his military service
obligations on October 30, 2008 with an Honorable
Discharge and returned to Texas.
13. In December 2008, prior to returning to work with
DPS, Plaintiff timely notified DPS of his intent to be reemployed.
14. When Plaintiff was deployed to Iraq, he was
exposed to “burn pits” on his base. The “burn pits” were
where waste and trash were burned, causing toxic fumes
and smoke to envelope the base. Because of the exposure
to the “burn pits,” thousands of servicemembers,
including Plaintiff, returned home afflicted with various
illnesses and diseases, including respiratory and
pulmonological illnesses, and cancer.
15. On or about _November 16, 2010, Plaintiff was
diagnosed with constrictive bronchiolitis.
16. Plaintiff’s lung disease prevented him from
resuming full duties with DPS so he requested reasonable
alternative accommodations from DPS.
17. Defendant
refused
Plaintiff’s
reasonable
accommodation request to return to work in a different
capacity.
18. On or about January 10th, 2011, Plaintiff received
a memo from CPT Rhonda Lawson, an employee of
Defendant, stating that Plaintiff would be “unable to
return to your current position.” LT. Pete Amador,
another employee of Defendant, sent Plaintiff a memo

75a
with a temporary duty offer but threatened Plaintiff with
termination from his job if he did not report to duty.
19. On or about July 26, 2012, Chris Livingston,
DPSOA Counsel, told Plaintiff he would need to resign.
This decision was supported by CPT Rhonda Lawson and
SGT Exiquiel Benavides. Plaintiff was instructed to
change his memorandum to say “resignation” instead of
“medical retirement” to qualify for ERS (Employee
Retirement System) retirement. Plaintiff has never
received his ERS retirement.
20. Defendant’s illegal decision to force Plaintiff to
resign because of the injuries he suffered incident to his
military service obligations has destroyed his career and
he will continue to sustain lost compensation and benefits
for the remainder of his work life. In all reasonable
probability, Plaintiff will sustain future lost wages, not
including any LWOP Plaintiff was forced to take due to
his ongoing medical issues, future lost longevity pay, and
future pension or retirement benefits.
Count I —Discrimination in Violation of 38 U.S.C.
4301, et seq.
21. Plaintiff repeats and incorporates the allegations
contained in the foregoing paragraphs as if fully set forth
herein.
22. USERRA prohibits “discrimination against
persons because of their service in the uniformed
services.” 38 U.S.C. §4301(a)(3).
23. Plaintiffs protected status as a member of the
U.S. Army Reserve was a substantial and motivating
factor in Defendant’s denial of Plaintiff’s benefits of
employment without good cause, including but not limited
to, failing to properly reemploy Plaintiff after his military
service obligations, materially changing Plaintiff’s
employment status, failing to timely and properly

76a
contribute to Plaintiff’s retirement or pension plan(s), and
ultimately terminating him based on his military service
obligations.
24. Section 4311 of USERRA provides, in relevant
part, that a person “who is a member of…performs, has
performed…or has an obligation to perform service in a
uniformed service shall not be denied… any benefit of
employment by an employer on the basis of that
membership…performance of service, or obligation.”).
25. Section 4311(c) further provides, in relevant part,
that “[a]n employer shall be considered to have engaged
in actions prohibited… if the person’s membership… or
obligation for service in the uniformed services is a
motivating factor in the employer’s action.”
26. Section 4303 defines a “benefit of employment” to
include the “terms, conditions and privileges of
employment including any advantage, profit, privilege,
gain, status, account, or interest (including wages or
salary for work performed)… and the opportunity to
select work hours or location of employment.”
27. Section 4313 of USERRA (further codified by 20
C.F.R. § 1002.191) provides that an employee is entitled
to reemployment in the job position that he or she would
have attained with reasonable certainty if not for the
absence due to uniformed service. This position is known
as the escalator position. The escalator principle requires
that the employee be reemployed in a position that
reflects with reasonable certainty the pay, benefits,
seniority, and other job perquisites, that he or she would
have attained if not for the period of service.
28. “A disabled service member is entitled, to the
same extent as any other individual, to the escalator
position he or she would have attained but for uniformed
service.” 20 C.F.R. §1002.225.

77a
29. Section 4313 of USERRA provides that the
employer is obligated to make reasonable efforts to
accommodate the employee’s disability and employ him at
his previous position or one he reasonably would have
attained but for his military service. Only if, after the
employer makes these reasonable efforts, the employee
may still not perform the duties of that position, the
employer must reemploy the employee “in any other
position which is equivalent in seniority, status, and pay,
the duties of which the person is qualified to perform or
would become qualified to perform with reasonable
efforts by the employer, or in a position which is the
nearest approximation to a position referred to [above] in
terms of seniority, status, and pay consistent with
circumstances of such person’s case.” 38 U.S.C.
§ 4313(a)(3)(A),(B); 20 C.F.R. §1002.225.
30. Section 4316 of USERRA provides that any
period of absence from employment due to or necessitated
by uniformed service is not considered a break in
employment, so an employee absent due to military duty
must be treated as though they were continuously
employed.
31. DPS’s failure to re-employ Plaintiff at a position
equivalent in seniority, status and pay violates USERRA,
including, but not limited to, Sections 4311, 4312 and 4313.
32. DPS’s failure to timely and properly contribute to
Plaintiff’s retirement or pension plan(s) violates
USERRA, including, but not limited to, Section 4316.
33. Defendant knowingly and willfully violated
USERRA by, among other ways, discriminating against
Plaintiff, and by denying him employment benefits “on
the basis of” his “obligation to perform service in a
uniformed service.

78a
34. As a direct and proximate result of the conduct of
Defendant as set forth in this count, Plaintiff has suffered
injuries and damages including but not limited to, loss of
past earnings and benefits, and loss of future earnings and
benefits, all to his damage in an amount to be proven at
trial.
35. Plaintiff alleges such violations of USERRA were
willful and requests liquidated damages in an amount
equal to the amount of his lost wages and other benefits
pursuant to 38 U.S.C. §4323(d)(1)(C).
36. Pursuant to 38 U.S.C. §4323(h), Plaintiff further
requests an award of reasonable attorney’s fees, expert
witness fees, and other litigation expenses.
Damages
37. Plaintiff is entitled to an award for future lost
earnings and employment benefits if reinstatement is not
feasible. Plaintiff should recover damages for future lost
earnings and for any future lost retirement contributions.
Said amounts are future lost wages in the amount of
$700,892.88 and future lost retirement benefits in the
amount of $4,566,240 or in the amount proven at trial.
38. Further and exclusive of any such amounts,
Defendants intentional actions will sustain an award of
liquidated damages in the amount equal to his economic
damages.
39. Under Texas law, plaintiff is entitled to recover
prejudgment interest computed as simple interest at the
rate of 10 percent per annum.
40. Pursuant to USERRA, Plaintiff will show himself
entitled to an award of reasonable attorneys’ fees and
costs of litigation.

79a
Jury Demand
41. Plaintiff has presented a timely demand for jury
trial for all issues triable by a jury, and he hereby
reaffirms such demand.
Prayer
WHEREFORE, PREMISES CONSIDERED,
Plaintiff respectfully prays that, on trial of this action,
Plaintiff have final judgment against Defendant for the
following relief:
1. Declare that the acts and practices complained of
herein are unlawful and are in violation of USERRA,
38 U.S.C. § 4301, et seq.;
2. Require that Defendant fully complies with the
provisions of USERRA by providing Plaintiff with
lost wages and all employment benefits denied to him
as a result of the unlawful acts and practices under
USERRA described herein;
3. Fees and expenses, including attorneys’ fees and
costs, including expert witness fees, pursuant to 38
U.S.C. §4323(h);
4. Award Plaintiff prejudgment interest on the
amount of lost wages or employment benefits found
due;
5. Order that Defendant pays compensatory and/or
liquidated damages in an amount equal to the amount
of lost compensation and other benefits suffered by
reason of Defendant’s willful violations of USERRA;
6. Grant an award for costs of suit incurred; and;
7. Grant such other and further relief as may be just
and proper and which Plaintiff may be entitled to
under all applicable laws.

80a
Respectfully submitted,
CHAPMAN LAW FIRM
710 N. Mesquite, 2nd Floor
Corpus Christi, Texas 78401
Telephone: (361) 883-9160
Facsimile: (361) 883-9164
schapman@chaplaw.net
/s/
Stephen J. Chapman
State Bar No. 24001870
Brian J. Lawler
PILOT LAW, P.C.
750 Beech Street, Suite 108
San Diego, California 92101
Telephone: (619) 255-2398
Facsimile: (619) 231-4984
blawler@pilotlawcorp.com
Pro Hac Vice pending
ATTORNEYS FOR PLAINTIFF
PLAINTIFF HEREBY DEMANDS TRIAL BY JURY

